                     UNCLASSIFIED

  United States Department of State

and the Broadcasting Board of Governors

        Ofﬁce of Inspector General





                Ofﬁce of Audits



       Audit of

 Broadcasting Board of

      Governors 

Overseas Nonexpendable 

   Personal Property

 Report Number AUD/HCI-10-24, July 2010




                               IMPORTANT NOTICE


This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will be
determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
disclosure of this report may result in criminal, civil, or administrative penalties.




                       UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                             UNCLASSIFIED





                                TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

   Finding A. Capitalized Property in PIPS Was Not the Direct Source
      for Financial Statements and Was Not Properly Valued . . . . . . . . . . . . . . . . 7

   Finding B. PIPS Data on Property Could Not Always Be Veriﬁed
      and Was Incomplete. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

APPENDICES

   A. Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

   B. Detailed Results of Existence and Completeness Samples . . . . . . . . . . . . . . . 35

   C. Broadcasting Board of Governors Response . . . . . . . . . . . . . . . . . . . . . . . . . 41





                                              UNCLASSIFIED

                                                UNCLASSIFIED





                               EXECUTIVE SUMMARY

        In FY 2007, the Broadcasting Board of Governors (BBG) implemented the
    Property Inventory Processing System (PIPS) worldwide. This action was taken to
    address deﬁciencies in control over personal property previously identiﬁed in
    Ofﬁce of Inspector General (OIG) audit and inspection reports. As of July 8, 2009,
    PIPS included records of 13,381 items of nonexpendable personal property, with
    acquisition costs of more than $350 million. More than 8,500 (64 percent) of these
    items, with acquisition costs totaling almost $245 million (70 percent), were located
    overseas. Of the items located overseas, 668 (8 percent) were capitalized, with
    acquisition costs totaling almost $226 million (92 percent) and a net book value after
    depreciation of more than $84 million.

        OIG conducted this audit to determine whether BBG could properly account
    for its nonexpendable personal property overseas. Speciﬁcally, OIG attempted to
    verify whether capitalized assets included in PIPS were properly valued, personal
    nonexpendable property included in PIPS existed, and PIPS data was accurate and
    complete.

        OIG conducted its audit between June 2009 and March 2010 at BBG ofﬁces in
    Washington, DC, and in August 2009 at transmitting stations located in the Northern
    Mariana Islands (two), the Philippines (two), Germany (two), and Sri Lanka (one).
    These locations represented seven of the 11 physical locations of transmitting sta-
    tions outside the continental United States.

         OIG found that PIPS was not the direct source for capitalized nonexpendable
    property on BBG’s ﬁnancial statements because BBG continued to use a spreadsheet
    that had been developed in 2005 to consolidate data from the property tracking
    systems in use at that time. Also, BBG did not always properly value its capitalized
    property. Speciﬁcally, some BBG personnel stated that they were not aware of re-
    quirements for reporting the value of BBG’s capitalized property. As a result, annual
    depreciation was overstated by as much as $1 million and net book value for prop-
    erty, plant, and equipment was understated by as much as $19.7 million on BBG’s
    FY 2009 ﬁnancial statements. These actions warrant BBG’s reviewing the impact on
    its ﬁnancial statements for FY 2009 and prior years with its independent auditor.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   1 .


                                                UNCLASSIFIED
                                                  UNCLASSIFIED



                  Further, PIPS data on property could not be veriﬁed and was incomplete because
              BBG’s internal control environment did not ensure that physical inventories were
              conducted and certiﬁed, that PIPS records were updated, that personnel had ad-
              equate guidance and training, and that serial numbers or other unique identiﬁers were
              recorded in PIPS.

                   OIG provided BBG with a copy of the draft report on May 26, 2010, and BBG
              responded on June 23. In its response, BBG did not dispute the accuracy of the
              report but noted that staff, in implementing inventory controls and reporting at
              overseas broadcasting stations, encountered “increasing mission-related demands and
              fewer resources.” BBG stated, for example, that the station in Germany had three
              transmitting sites and a staff of 41 in October 2006 but had only 20 staff members
              at the end of FY 2009. However, the number of annual shortwave broadcast hours
              “has increased from 32,400 to 45,760.” Furthermore, BBG stated that there was
              no evidence that the property that OIG could not account for was stolen or misap-
              propriated and that it believed the vast majority would be found or accounted for.
              BBG concurred with nine of the report’s 10 recommendations. For the remaining
              recommendation (No. 2), which stated that BBG should use data from PIPS rather
              than from its internally developed spreadsheet for information for its ﬁnancial state-
              ments, BBG agreed. However, it stated that developing a “fully integrated propery
              and ﬁnancial accounting system” such as PIPS was a “long-term project.” BBG did
              agree to take “short-term” actions, and OIG determined these proposed actions to
              be responsive to the intent of the recommendation. Based on the response, OIG
              considered all 10 recommendations resolved, pending further action.




2 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                  UNCLASSIFIED
                                                UNCLASSIFIED





                                          BACKGROUND

        BBG is an independent Federal agency that supervises all U.S. non-military
    international broadcasting services. The International Broadcasting Bureau provides
    engineering and technical operations for transmitting stations located domestically, in
    seven countries, and in one commonwealth outside the continental United States, as
    well as satellite and Internet delivery systems for all BBG broadcasters. The Inter-
    national Broadcasting Bureau also manages the operations of the Voice of America
    and the Ofﬁce of Cuba Broadcasting (which oversees Radio/TV Marti).

    Property Inventory Processing System

        PIPS, BBG’s automated property accounting system, is used to account for all
    real and nonexpendable property, both capitalized and noncapitalized.

          Real property consists of owned or leased land, buildings, structures, and facili-
    ties. Nonexpendable property is an item of property that is complete in itself, does
    not lose its identity or become a component part of other property when used, has
    an initial acquisition cost of $5,000 or more, is durable, and has an expected useful
    life of over 2 years. All nonexpendable property must have a barcode and have a
    property record established in PIPS. Nonexpendable property also includes sensitive
    equipment, such as equipment containing classiﬁed material, laptop computers, and
    cameras, which is mission essential, attractive for personal use, pilferable, or hazard-
    ous and costs between $1,000 and $5,000. Although sensitive items are under the
    $5,000 threshold, they require a greater degree of control and accountability. There-
    fore, the equipment must have a barcode and a property record established in PIPS.
    PIPS captures property records for real and nonexpendable property in the active
    ﬁle, or module, until the property is transferred to another organization or disposed
    of. When either action occurs, the property is removed from the active database and
    moved to the PIPS archive ﬁle, which is a module within PIPS that stores inactive
    property records.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   3 .


                                                UNCLASSIFIED
                                                  UNCLASSIFIED



                  Capitalized property describes real and nonexpendable property that must be
              reported by the Chief Financial Ofﬁcer (CFO) on an agency’s quarterly and annual
              ﬁnancial statements. Capitalized property is accounted for like any other piece of
              real or nonexpendable property. To be considered capitalized property, the item
              must meet one of ﬁve thresholds. Speciﬁcally, it must be:

                   •     nonexpendable property with an acquisition cost of $25,000 or greater.
                   •     other structures and facilities with an acquisition cost of $50,000 or greater.
                   •     a building with an acquisition cost of $100,000 or greater.
                   •     a vehicle regardless of acquisition cost.
                   •     any owned land regardless of acquisition cost.

                  The capitalized property records are used to prepare the agency’s ﬁnancial
              statements; therefore, receipts, transfers, disposals of capitalized property, and any
              changes to the capitalized property record are reported monthly to BBG’s Ofﬁce of
              Engineering and Technical Services (E ofﬁce), Network Support Division (E/OT),
              in a transmitting station’s monthly report. No information can be changed on the
              PIPS property record unless the station reports the change and includes the required
              supporting documentation in its monthly report submission.

                  As of July 8, 2009, PIPS included records of 13,381 items of nonexpendable
              personal property, with acquisition costs of approximately $350 million. More than
              8,500 (64 percent) of these items, with acquisition costs totaling almost $245 million
              (70 percent), were located overseas. Of the items located overseas, 668 (8 percent)
              were capitalized, with acquisition costs totaling almost $226 million (92 percent) and
              a net book value of more than $84 million.

                   In addition to PIPS, CFO staff maintains an Excel spreadsheet that tracks capi-
              talized property as well as annual and accumulated depreciation and net book value.
              PIPS data serves as the initial source of the spreadsheet’s data. In addition, E/
              OT provides the CFO with quarterly updates on acquisitions, disposals, and adjust-
              ments to the capitalized property in PIPS. The CFO spreadsheet is the source of the
              capitalized property and depreciation expense data used in BBG’s annual ﬁnancial
              statements.

              BBG Responsibilities

                  The Director of the E ofﬁce is the Property Management Ofﬁcer, who is
              responsible for the overall administration, coordination, and control of BBG’s prop-
              erty management program, including developing and implementing BBG’s property
              management policies and procedures.

4 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                  UNCLASSIFIED
                                                UNCLASSIFIED



        The Chief of E/OT is the Agency Property Manager, who is responsible for
    the day-to-day administration of the property management program. Duties of E/
    OT include disseminating and implementing property policies and procedures within
    BBG; maintaining the BBG-wide central property database; and acting as the Prop-
    erty Control Ofﬁce for the transmitting stations, technical monitoring ofﬁces, and
    other facilities under the direction of the E ofﬁce

        The Transmitting Station Manager and the Chief of the Technical Monitoring
    Ofﬁce, the accountable ofﬁcers for their organizations, are responsible for all prop-
    erty assigned to the organization regardless of how it was acquired (for example,
    owned, leased, hand-receipted, or locally procured).

        To assist the accountable ofﬁcer, one property custodian, who is a Government
    employee, may be designated for each custodial area (for example, Transmitter Plant,
    Facilities, or Administration) established by the accountable ofﬁcer. The property
    custodian is responsible for properly managing, maintaining, accounting for, and
    controlling the nonexpendable property and sensitive equipment assigned to him or
    her by the accountable ofﬁcer.

        All U.S. Government and contract employees are responsible for ensuring that
    any U.S. Government property in their custody is used properly and protected. Em-
    ployees may be held liable for property that is stolen, destroyed, lost, or damaged as a
    result of negligence, improper use, or willful action on the employee’s part.

    Prior and Concurrent Reports

        Between FYs 2002 and 2009, OIG issued one audit report,1 two inspection
    reports,2 and a management letter,3 all of which identiﬁed deﬁciencies in various
    aspects of BBG’s property management. At the time of this audit, all of the recom-
    mendations relating to property were closed. Concurrent with this audit, an audit of
    BBG’s ﬁnancial statements4 and an inspection of the Kuwait Transmitting Station5
    examined some aspects of BBG’s controls over property and also identiﬁed deﬁcien-
    cies in internal controls over BBG’s nonexpendable personal property.



    1
      BBG Controls on Domestic Personal Property (IBO-A-02-03, Sept. 2002).

    2
      Review of Voice of America Central News (ISP-IB-08-06, Oct. 2007) and 

    Review of Voice of America Persian News Network (ISP-09-27, Mar. 2009).

    3
      Management Letter Related to BBG’s 2007 and 2006 Financial Statements (AUD/FM-08-06, Feb. 2008).

    4
      Independent Auditor’s Report on the Broadcasting Board of Governors Financial Statements, September 30, 2009 

    and 2008 (AUD/IB-10-04, Nov. 2009).

    5
      Inspection of International Broadcasting Bureau Kuwait Transmitting Station (ISP-IB-10-45, Mar. 2010).



OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   5 .


                                                UNCLASSIFIED
                                                  UNCLASSIFIED





6 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                  UNCLASSIFIED
                                                UNCLASSIFIED





                                             OBJECTIVE

        The overall objective of the audit was to determine whether BBG could properly
    account for its nonexpendable personal property overseas. Speciﬁcally, OIG was to
    determine whether:

         •    the capitalized assets included in PIPS were properly valued.
         •    the personal property included in PIPS existed.
         •    PIPS data was accurate and complete.6



    AUDIT RESULTS
    Finding A. Capitalized Property in PIPS Was Not the
    Direct Source for Financial Statements and Was Not
    Properly Valued

        Although PIPS is BBG’s automated property accounting system, it was not the
    direct source for capitalized property and depreciation expenses reported in BBG’s
    ﬁnancial statements. This occurred because BBG’s CFO, rather than using PIPS
    to obtain data on capitalized items, used a spreadsheet developed in 2005 to obtain
    the data. Relying on a spreadsheet, in which data is entered manually, increases the
    potential for errors and omissions to occur. The Foreign Affairs Manual (FAM)7
    requires BBG to calculate annual and accumulated depreciation expense. However,
    as required by Federal Accounting Standards Advisory Board Statement of Federal
    Financial Accounting Standards (SFFAS) No. 6,8 BBG personnel responsible for
    calculating and reporting on the data did not include salvage value and shipping
    (transportation) costs when they valued their property. Because BBG did not prop-
    erly value its capitalized property, OIG estimated that BBG’s ﬁnancial statements for
    FY 2009 overstated annual depreciation by as much as $1 million and understated


    6
      “Complete” as deﬁned in this report means that PIPS contains records of all nonexpendable 

    personal property and the related information that is required and/or appropriate under appli-
    cable laws, regulations, and other non-BBG and BBG guidance.

    7
      14 FAM 415.2-2.

    8
      “Accounting for Property, Plant, and Equipment,” June 1996.



OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   7 .


                                                UNCLASSIFIED
                                                  UNCLASSIFIED




              the net book value of property, plant, and equipment by as much as $19.7 million.
              Similar misstatements could also have occurred for prior years’ ﬁnancial statements.
              These actions warrant BBG’s reviewing the impact on its ﬁnancial statements for FY
              2009 and prior years with its independent auditor.

              PIPS Not Direct Source of Data for Annual Financial
              Statements

                  BBG implemented PIPS worldwide in 2007 to correct a high vulnerability weak-
              ness identiﬁed in property management. However, rather than exploring the option
              of using PIPS as a means of obtaining data on capitalized items, the CFO contin-
              ued to use a spreadsheet that it developed in 2005 to consolidate the data from the
              three property tracking systems used at that time. Moreover, when E/OT ofﬁcials
              developed and implemented the PIPS upgrade, they did not involve the CFO in the
              process.

                  Each quarter, E/OT provides updated PIPS data to the CFO that indicates ac-
              quisitions, deletions, and adjustments to the property data as appropriate. The CFO
              also uses additional invoice and payment data obtained from E/OT and the ﬁnancial
              system to verify data on the spreadsheet, which includes calculations for annual and
              accumulated depreciation that are not captured in PIPS.

                   However, in its audit report of BBG’s 2009 ﬁnancial statements, the independent
              auditor found BBG’s internal control over its ﬁnancial and accounting system to be
              “inadequate” and that there was the risk for the ﬁnancial information to be “materi-
              ally mistat[ed] . . . under the current conditions.” The report further stated that “cer-
              tain elements of the ﬁnancial statements, principally property, plant, and equipment,”
              were “developed from sources other than the general ledger,” which “increases the
              potential for omission of signiﬁcant transactions.”

                  PIPS is not linked to either the general ledger or the procurement and payment
              systems, and it requires that all data, including data relating to procurement and pay-
              ment, be entered into PIPS manually, which increases the risk for errors and omis-
              sions. OIG believes that relying on the additional step of taking data from PIPS and
              then manually entering the data into the CFO spreadsheet for reporting on capital-
              ized property further increases the risk for errors and omissions. Representatives of
              both the CFO and E/OT stated that the spreadsheet provided a check and balance
              because it and PIPS data must be the same and that any discrepancies would be iden-
              tiﬁed and corrected. However, as described in the sections that follow, OIG found
              that both methods of accounting contained errors.



8 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                  UNCLASSIFIED
                                                UNCLASSIFIED




    Discrepancies Between PIPS Data and CFO
    Spreadsheets

         OIG’s summary comparison of information contained in the fourth quarter FY
    2009 CFO spreadsheet and in PIPS on October 21, 2009, identiﬁed discrepancies in
    the years for useful life of capitalized nonexpendable personal property. That is, the
    CFO spreadsheets used only four terms to designate the number of years for useful
    life (6, 10, 20, and 30 years), and PIPS used six terms (4, 6, 10, 20, 25, and 30 years).
    PIPS and CFO ofﬁcials agreed that the CFO terms were correct and that PIPS data
    should be corrected. Another discrepancy was found in OIG’s detailed comparison
    of 39 capitalized items purchased between June 2006 and July 2009. The acquisition
    costs and acquisition dates matched for 36 items. However, the spreadsheet was cor-
    rect on the remaining two acquisition costs, and PIPS was correct on one acquisition
    date. Documentation for the other acquisition cost and two acquisition dates was
    not available.

        Although the CFO spreadsheet was more accurate on the useful lives of the
    property, it was not complete. The CFO spreadsheet relied on data from PIPS to
    generate a record, but this data was not always recorded in a timely manner in the
    spreadsheet. CFO staff stated that they relied on the quarterly updates from E/
    OT to identify acquisitions, deletions, and adjustments. For example, the fourth
    quarter FY 2009 update from E/OT identiﬁed 13 items, with a total acquisition cost
    of $1.9 million and acquisition dates between February 2002 and May 2008. These
    items had not been previously reported in the CFO spreadsheet and resulted in an
    understatement in the ﬁnancial statements. Furthermore, a comparison of the fourth
    quarter 2009 CFO spreadsheet and the October 21, 2009, PIPS data showed that
    seven items acquired between January and June 2009, with total acquisition costs of
    approximately $284,000, were not in the spreadsheet.

        Although these amounts were not material for either annual or accumulated de-
    preciation expense and net book value for prior periods, the inaccuracies resulted in
    misstatements for those periods. Furthermore, both the CFO spreadsheet and PIPS
    shared the more signiﬁcant discrepancies related to salvage value and, to a much less
    signiﬁcant amount, acquisition costs (these conditions are discussed further in the
    sections that follow).

        E/OT personnel, on a quarterly basis, provide the CFO’s ofﬁce with PIPS
    updates related to capitalized property. CFO personnel input this data into their
    spreadsheet, determine depreciation, and report this information in the ﬁnancial
    statements. Although CFO personnel are responsible for reporting the value of


OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   9 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED




               property in the ﬁnancial statements, E/OT is responsible for the accuracy of data in
               PIPS. However, since the CFO relies on PIPS data to generate the records in the
               CFO spreadsheet, any errors, omissions, and deﬁciencies in PIPS data increase the
               potential for CFO data to be inaccurate and/or incomplete.

                   Both E/OT and CFO personnel who work with PIPS and the spreadsheet,
               respectively, agreed that if PIPS were somewhat modiﬁed to allow it to report annual
               and accumulated depreciation and if the deﬁciencies pertaining to PIPS cited in this
               report are corrected, PIPS should be used as the direct source of the depreciation
               and net book value for the annual ﬁnancial statements.

                    Recommendation 1: OIG recommends that the Broadcasting Board of
                    Governors, Ofﬁce of Engineering and Technical Services, in conjunction with
                    the Chief Financial Ofﬁcer, identify the system and procedural modiﬁcations
                    and corrections required to meet the requirements for reporting on capitalized
                    nonexpendable personal property for the annual ﬁnancial statements and that
                    it implement the appropriate modiﬁcations and corrections no later than
                    September 30, 2010.


                   Management Response and OIG Reply: BBG concurred with the recom-
               mendation, stating that it would take the actions recommended by September 30,
               2010. OIG considers this recommendation resolved, pending receipt of acceptable
               evidence of implementation.

                   Recommendation 2: OIG recommends that the Broadcasting Board of Gov-
                   ernors Chief Financial Ofﬁcer, upon veriﬁcation that the Property Inventory
                   Processing System (PIPS) meets its requirements for reporting on capitalized
                   nonexpendable personal property in the annual ﬁnancial statements, use PIPS
                   data rather than the internally developed spreadsheet.


                    Management Response: BBG “agree[d]” that it needs to take actions to ad-
               dress the issues identiﬁed but stated that developing a “fully integrated property
               and ﬁnanacial accounting system is a long-term project.” BBG further stated that it
               would take, “in the short term,” actions regarding procedural changes to the report-
               ing of capitalized property, plant, and equipment and that it will evaluate PIPS’ abil-
               ity to generate the information needed for the ﬁnancial statements.

                   OIG Reply: Although BBG did not agree to implement the “long-term”
               actions proposed, OIG considers BBG’s willingness to address the basis for the rec-
               ommendation sufﬁcient to meet the intent of the recommendation. OIG considers

10 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED




    this recommendation resolved, pending its acceptance of documentation showing
    the short-term actions BBG will take regarding procedural changes to the reporting
    of capitalized property, plant, and equipment; evaluation of PIPS’ ability to generate
    the information needed for the ﬁnancial statements; and the long-term development
    of a fully integrated property and ﬁnancial accounting system.

    Capitalized Nonexpendable Property Not Properly Valued

        BBG did not properly value its capitalized property in that it did not add salvage
    value, shipping costs, and additional costs when it calculated annual and accumu-
    lated depreciation expense and net book value for its annual ﬁnancial statements, as
    required by SFFAS No. 6. BBG personnel responsible for overseeing and reporting
    on the data stated that they were not aware of these valuation requirements. Because
    BBG did not assign the 10 percent salvage value, as required by the FAM,9 OIG es-
    timated that annual depreciation in the FY 2009 ﬁnancial statements was overstated
    by as much as $1 million and the net book value of property, plant, and equipment
    was understated by as much as $19.7 million. Similar misstatements could also have
    occurred for prior years’ ﬁnancial statements. Depending on the materiality of these
    misstatements, BBG may have to restate its ﬁnancial statements for FY 2009 and
    prior years.

    Salvage Value Not Included in Depreciation Expense

        In its review of both PIPS and the CFO spreadsheet, OIG found that salvage
    values were not considered in determining either the annual depreciation expense or
    the net book value of capitalized items, and E/OT and CFO ofﬁcials familiar with
    the data stated that they were not aware of the requirement that salvage values were
    to be assigned. The November 16, 2009, independent auditor’s report10 found that
    BBG’s internal controls over property were a signiﬁcant deﬁciency and that salvage
    values “were not treated consistently.”

         SFFAS No. 6 states that depreciation expense “is calculated through the system-
    atic and rational allocation of the cost of general PP&E [property, plant, and equip-
    ment] less its estimated salvage/residual value, over the estimated useful life of the
    general PP&E.”




    9
        14 FAM 411-4.
    10
         AUD/IB-10-04, Nov. 2009.


OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   11 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED



                    For 2009, BBG reported approximately $11 million in depreciation expense and
               amortization; $226 million in accumulated depreciation; and $133 million in net book
               value of property, plant, and equipment. However, because BBG did not assign the
               10 percent salvage value, annual depreciation for FY 2009 and accumulated depre-
               ciation were overstated by $1 million and $19.7 million, respectively, and net book
               value of property, plant, and equipment was understated by $19.7 million on BBG’s
               FY 2009 ﬁnancial statements. Because the salvage value was not included, similar
               overstatements and understatements could also have occurred for prior years. These
               actions warrant BBG’s reviewing the impact on its ﬁnancial statements for FY 2009
               and prior years with its independent auditor.

               Shipping and Other Costs Not Applied Consistently

                   BBG did not apply shipping costs and other applicable costs for property, plant,
               and equipment consistently. Speciﬁcally, based on a comparison of 39 purchase and
               shipping documents and invoices for capitalized items, OIG found that shipping and
               other costs were sometimes noted separately as a line item in the overall costs and
               other times included as part of the invoice of the cost of the item. Also, for nine
               invoices for capitalized items with individual shipping costs on the invoices with the
               acquisition costs shown in PIPS, OIG found that none of the items included the
               shipping costs, which totaled $11,745, in their acquisition costs. Also, the acquisition
               cost for one item in PIPS included $18,000 for an extended warranty, which should
               not have been included as part of the acquisition cost.

                   SFFAS No. 6 states that all general property, plant, and equipment (PP&E)
               “should be recorded at cost” and that cost “shall include all costs incurred to bring
               the PP&E to a form and location suitable for its intended use.” Cost (acquisition
               cost) may include items such as amounts paid to vendors, transportation charges to
               the point of initial use, and handling and storage costs.

                   In addition to the shipping costs listed on the invoice, E/OT ofﬁcials stated that
               they also may incur additional shipping costs. That is, E/OT may request that prop-
               erty items be shipped to BBG’s warehouse in Washington, DC, from where they are
               shipped in bulk to the various transmitting stations. However, shipping costs for this
               method of shipment are not routinely applied to the acquisition costs of the items.
               Furthermore, E/OT ofﬁcials stated that although individual stations may sometimes
               include such costs in the overall acquisition costs, it was not the policy to do so.

                   Although failing to include shipping costs did not materially affect the overall
               valuation or annual depreciation expense of the capitalized items, not including the
               shipping costs did result in an understatement in the depreciation expense and the


12 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED




    net book value and was not in compliance with accounting and other requirements.
    The November 16, 2009, independent auditor’s report11 also found that BBG’s
    “costs of shipping property . . . were not treated consistently.”

           Recommendation 3: OIG recommends that the Broadcasting Board of Gov-
           ernors, Ofﬁce of Engineering and Technical Services, in conjunction with the
           Chief Financial Ofﬁcer, review all capitalized nonexpendable personal property
           identiﬁed; assign salvage values for each item as appropriate; and adjust the an-
           nual depreciation expense calculations, accumulated depreciation expenses, and
           net book values for these items in the Property Inventory Processing System and
           the Chief Financial Ofﬁcer’s capitalized property spreadsheet as appropriate.



          Recommendation 4: OIG recommends that the Broadcasting Board of Gov-
          ernors Chief Financial Ofﬁcer inform the independent auditor of the revisions
          to annual and accumulated depreciation and net book value for capitalized
          property, plant, and equipment that resulted from the assignment of salvage
          values and determine whether BBG’s ﬁnancial statements for FY 2009 and
          prior years may have been impacted.



          Recommendation 5: OIG recommends that the Broadcasting Board of
          Governors, Ofﬁce of Engineering and Technical Services, in conjunction with
          the Chief Financial Ofﬁcer, develop and implement policies and procedures to
          ensure that personnel assign appropriate salvage values to all nonexpendable
          personal property before annual depreciation rates are calculated and applied.



          Recommendation 6: OIG recommends that the Broadcasting Board of Gov-
          ernors, Ofﬁce of Engineering and Technical Services, develop and implement
          policies and procedures to ensure that personnel include, in each item’s acquisi-
          tion costs, shipping and all other costs necessary to make nonexpendable per-
          sonal property ready for use.


        Management Response and OIG Reply: BBG concurred with Recommen-
    dations 3-6, stating that it would take the actions recommended. OIG considers
    Recommendations 3-6 resolved, pending receipt of acceptable evidence of imple-
    mentation.
    11
         AUD/IB-10-04, Nov. 2009.


OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   13 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED



               Finding B. PIPS Data on Property Could Not Always Be
               Veriﬁed and Was Incomplete
                    Data on the existence of all items in PIPS could not be veriﬁed, and data in PIPS
               listings for property items was incomplete. Speciﬁcally, of 1,702 nonexpendable
               personal property items sampled from PIPS, the existence of 180 items could not be
               veriﬁed. In addition, 101 of 257 sampled items were not included in PIPS. (Ex-
               amples of these deﬁciencies are shown in Appendix B.) These deﬁciencies occurred
               because BBG’s internal control environment did not ensure that guidance on how to
               conduct physical inventories was adequate and that serial numbers or other unique
               identiﬁers were recorded in PIPS. As a result, BBG had limited assurance that assets
               were not vulnerable to loss, theft, or misuse.

               Property Existence Could Not Be Veriﬁed

                   From the seven overseas transmitting stations in its audit, OIG selected all
               capitalized nonexpendable personal property and a stratiﬁed random sample of the
               remaining nonexpendable personal property (the sample methodology is detailed
               in Appendix A). Of the 4,580 items reported in PIPS for the seven locations as of
               July 8, 2009, OIG sampled 1,702 items (37 percent), with individual acquisition costs
               of less than $100 to more than $2 million. These items included cell phones, com-
               puters, monitors, electronic equipment, vehicles, antennas, and transmitters. OIG
               determined, for the 1,702 items randomly selected from PIPS, that the existence of
               180 items (11 percent), whose costs totaled $7.7 million, could not be veriﬁed for the
               reasons shown in Table 1.
               Table 1. Results of OIG’s Physical Veriﬁcation of Property Existence
                                                Northern Marianas           Philippines              Germany
                                                                                                           Lamper-  Sri
                 In PIPS                         Saipan       Tinian      Tinang      Poro      Biblis     theim   Lanka           Totals

                 In Sample                             162         273         389       116         110         242        410     1,702
                 Total OIG Veriﬁed                     146         254         357       108         104          221       332     1,522
                 Could Not Find Item                    12            7           0         0          0            4        31        54
                 Could Not Obtain
                 Adequate Documentation
                 for Item Disposition                     0           3           1         0          1            5         1        11
                 Could Not Conﬁrm Item
                 Was What or Where PIPS
                 Data Indicated                           4           9          31         8          5           12        46       115


                     Total OIG Could
                        Not Verify                      16           19          32         8          6           21        78       180



14 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED



    Disposition of Items

        OIG determined that the 180 items randomly selected from PIPS either could
    not be located, could not be documented, or could not be conﬁrmed as to what they
    were purported to be as follows:

         •    L
              	 ocating Property - 54 items, with total acquisition costs of approximately
              $500,000 and individual acquisition costs of $87 to $200,556, could not be
              located. Transmitting station personnel could provide explanations for only
              six items: two modulation monitors and a frequency synthesizer were report-
              ed as not having been seen since 2004, one modulation monitor was reported
              as never having been seen, one cell phone was reported as having been
              traded in for a replacement (4 days before the PIPS record of the date it was
              last inventoried), and one spare relay air conditioning panel was reported as
              having been removed when the air conditioning unit was removed “some
              years ago.” PIPS records showed that none of these six items had previously
              or subsequently been reported as disposed of or missing.

         •    D
              	 ocumenting Property – 11 items, with total acquisition costs of approximately
              $226,000 and individual acquisition costs of $800 to $115,000, did not have
              adequate documentation to support that the items had been previously
              disposed of, reported as missing, or transferred to another BBG entity, as
              station personnel had stated. Station personnel stated that one item was re-
              ported to have been identiﬁed as missing in July 2009 and that the remaining
              10 items were purportedly disposed of or transferred between the 1990s and
              2008, including three antennas purported to have been demolished in 1997.

         •    C
              	 onﬁrming Property – 115 items, with total acquisition costs of approximately
              $7 million and individual acquisition costs of less than $100 to $1.1 million,
              could not be conﬁrmed as either the items station personnel purported them
              to be or that they were where PIPS records indicated they were located. The
              items could not be conﬁrmed because they did not have barcodes and PIPS
              did not contain serial numbers or other identifying information, the items
              had barcodes but serial numbers did not match those recorded in PIPS, the
              items were identiﬁed as being located where OIG could not travel to verify
              their existence, or station personnel could not provide documentation that
              the items existed.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   15 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED



               Listing of Property in PIPS Incomplete

                   OIG attempted to determine the completeness of data in PIPS, that is, whether
               PIPS contained records of all nonexpendable personal property and the related
               information that was required under applicable BBG guidance.12 Speciﬁcally, of its
               judgmental sample of 257 items of nonexpendable personal property, OIG found
               that 101 items, of which 51 items had barcodes and 50 did not, were not included in
               PIPS or the archive ﬁle. OIG was not able to determine why PIPS was incomplete,
               that is, why the items with barcodes were not in the archive ﬁle if they were not in
               PIPS.

                    If an item did not have a barcode but did have a serial number, OIG searched
               for the serial number in PIPS and the archive ﬁle. Because OIG did not know the
               acquisition costs of the items to determine whether they met the minimum value cri-
               teria for entry into PIPS, OIG, as part of the sample selection process, selected only
               items on-site that were similar to or the same as the types of items in PIPS at that
               speciﬁc location. OIG’s rationale was that if other items of the same type were in-
               cluded in PIPS for a particular site, all of the same types of items should be included
               in PIPS. The results of OIG’s sample are shown in Table 2.

               Table 2. Details of Completeness Test Sampling
                                             Sri           Northern
                                            Lanka          Marianas               Philippines              Germany

                                                                                                                 Lamper-           Totals
                                           Chilaw      Saipan     Tinian       Poro       Tinang       Biblis     theim
                 Items In Sample:            64          23         47          29           41          22         31              257
                 Items in PIPS or             40          16         19          23          34           8          16             156
                 the Archive File:          (63%)       (70%)      (40%)       (79%)       (83%)       (36%)       (52%)           (61%)
                 Items NOT in PIPS            24          7          28          6           7           14          15              101
                 or the Archive File:       (38%)       (30%)      (60%)       (21%)       (17%)       (64%)       (48%)           (39%)




               12
                 The guidance consisted of the Property Inventory Processing System III (PIPS III) Users
               Manual, dated Jan.18, 2007, and the International Broadcasting Bureau Manual of Operations
               and Administration, sec. 710(4), “General Concept for Accounting for Nonexpendable Property
               and Sensitive Equipment,” dated Dec. 12, 2007.


16 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED



    Physical Inventories Not Adequately Conducted

        PIPS data indicated that all of the items in OIG’s sample for veriﬁcation at the
    seven sites had been physically inventoried between January and April 2009, and the
    accountable ofﬁcers/station managers at the sites attested that PIPS data was correct
    and accurately reﬂected the results of the annual inventory. However, OIG found
    no documentation to support that the annual physical inventories required by Trans-
    mitting Station Instruction 10813 had actually been conducted or that the accountable
    ofﬁcers had veriﬁed the inventory results before they signed the certiﬁcations.

        The Transmitting Station Instruction requires nonexpendable personal prop-
    erty to be inventoried annually and PIPS to be updated accordingly when there is a
    change in accountable ofﬁcers. The International Broadcasting Bureau Manual of
    Operations and Administration14 further requires physical inventories to be generally
    conducted by March 31 of each year, with certiﬁed hard copies of the results of the
    inventory to be provided to E/OT no later than April 10 of each year. The certiﬁca-
    tion is to include the following language:

         I accept accountability for all property listed on the attached property inventory 

         report, dated March 31, 200x. I certify that to the best of my knowledge the 

         content of this listing:

         -Represents all accountable property in my accountable area.

         -Is an accurate representation of this property in the Agency’s property database.

         -Has been properly inventoried in the past year.


         Missing property reports are attached for items marked with an asterisk (*) that 

         could not be located during this inventory.

         Property custodians at two sites stated that they had not conducted physical
    inventories since 2004, and at another site, the property custodian responsible for
    the 2009 inventory stated that he had not conducted a full physical inventory. The
    two station managers for these three sites did not verify the inventories presented to
    them before or after they had certiﬁed the results. One manager stated that he had
    considered verifying the inventories but had not, and the other manager stated that
    he should have been alerted when he noticed that the property custodian responsible
    for overseeing the physical inventory at the other in-country site had not been to that
    site for years.

    13
       Transmitting Instruction 108: Property Accountability, sec. 108.17, “ Reporting on Property,”

    Jan. 16, 2008.

    14
       International Broadcasting Bureau Manual of Operations and Administration, secs. 710(9)c, 

    “Reconciling the Inventory Results,” and 710.14, “Reporting on Property,” dated Dec. 12, 2007.



OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   17 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED




                   Property custodians at the other four sites stated that they had performed the
               physical inventories as required, but they could not provide documentation to sup-
               port that they had done so or explain why the items that they had told OIG had
               been disposed of previously, that did not have barcodes, or that had serial numbers
               that did not match those in the PIPS records continued to be included in PIPS or
               continued to include incorrect data in PIPS rather than being deleted or corrected as
               appropriate.

                   Prior to its ﬁeldwork at the seven transmitting stations, OIG’s summary review
               of June 23, 2009, PIPS data containing 13,375 records (domestic and overseas)
               showed that 1,354 records identiﬁed the items’ most recent inventory date as prior to
               June 23, 2008 (one year before the date of the PIPS data, despite the annual require-
               ment). Of the 1,354 records, 846 records showed the latest inventory date as 2 or
               more years prior to June 23, 2009, including 124 records that were dated 5 or more
               years prior to June 23, 2009. About 22 percent of these records were located over-
               seas, and 78 percent were located domestically.

                   OIG did not ﬁnd documentation to support that individual accountable ofﬁcers
               or E/OT personnel in Washington had implemented internal controls or took action
               to verify the accuracy of the inventories. Individual accountable ofﬁcers relied on
               information provided by their property custodians and certiﬁed it without testing
               or other veriﬁcation, and E/OT accepted the certiﬁcations without question and
               evidence of oversight or veriﬁcation.

               Guidance on Physical Inventories Inadequate

                   Property custodians at the sites visited had different views on what constituted a
               physical inventory and how it should be conducted, and guidance in the Transmitting
               Station Instructions and the Manual of Operations and Administration on these sub-
               jects was limited and inadequate. The guidance consisted basically of telling person-
               nel who conduct inventories to print out the property listing, compare the property
               with the items on the list, update PIPS records for existing property as appropriate,
               add to PIPS the “found” items not already in PIPS, and report missing items on the
               proper forms.

                   Guidance that contained more detailed steps on how to conduct physical in-
               ventories was posted on BBG’s intranet Web site.15 However, OIG found that the
               guidance had never been distributed and that personnel responsible for conducting
               inventories at the seven stations were not aware of its existence.

               15
                    Informal guidance on physical inventories is at various locations on BBG’s intranet Web site.


18 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED




        Although the guidance on the Web site would be helpful, it needs to be revised
    to address all aspects related to physical inventories and provide more speciﬁc direc-
    tion to the personnel using it, such as the information contained in the Government
    Accountability Ofﬁce’s guidance on inventories.16 For example, E/OT’s guidance
    does not address issues such as the following:

         • 	 The inventory of other items that are not required to be included in PIPS
             but that the station has chosen to include at its discretion or the removal of
             such items from PIPS when the station no longer needs to track them.
         • 	 The importance of verifying the accuracy and completeness of identifying
             data such as descriptions or serial numbers.
         • 	 The segregation of duties and the need to ensure that individuals responsible
             for the day-to-day control of the property are not the only individuals who
             perform the inventories.
         • 	 Whether and, if so, how to verify the results of the physical inventory by
             having a party not involved in the inventory randomly test or sample the
             results for accuracy and completeness.

        In addition to inadequate guidance, OIG found no documentation to support
    that the property custodians or other individuals conducting the inventories had
    been properly trained on how to conduct the inventories. Consequently, individuals
    conducting the inventories did not always add items or identify items as missing, and
    they did not correct inaccurate or incomplete data, which was suggested in E/OT’s
    guidance.

    Serial Numbers Not Required

        Of the 13,990 records of items (domestic and overseas) in PIPS on October
    21, 2009, 2,576 items did not have serial numbers. Approximately 1,900 items (14
    percent of all of the items in PIPS), with total acquisition costs of approximately
    $184 million, were the types of items that were likely to have a serial number, vehicle
    identiﬁcation number, or other unique identifying number. However, the PIPS User
    Manual (page 18) states that the serial number ﬁeld in PIPS is optional. Therefore,
    the serial number ﬁeld within PIPS was populated with numbers or alphanumeric
    characters or was left blank.



    16
       Executive Guide on Best Practices in Achieving Consistent, Accurate Physical Counts of Inventory and Re-
    lated Property (GAO-02-447g, Mar. 2002).


OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   19 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED




                    In PIPS, the barcode is considered the unique identiﬁer. However, as OIG ob-
               served, barcodes can be removed or, by using the proper software, replicated. Se-
               rial numbers and vehicle identiﬁcation numbers, by contrast, are usually not easily
               removed or altered, but if they are, the removal is usually apparent. If the serial
               number or vehicle identiﬁcation number was not included in PIPS and a barcode was
               removed from one item and placed on another or the barcode was replicated and
               placed on another item of a similar description, make, and model, there would be
               no way to determine whether it was the correct item. For example, station personnel
               showed OIG 48 items purported to be in OIG’s sample that did not have barcodes
               to verify against PIPS records. Although the items had serial numbers, the numbers
               were not recorded in PIPS, and OIG had no basis to determine whether these were
               the items they were purported to be. OIG believes that including the unique serial
               number or vehicle identiﬁcation number for those items that have them would pro-
               vide another control in tracking and accounting for property.

               Conclusion

                   Because OIG did not conduct a complete physical inventory of all nonexpend-
               able personal property at any of the seven sites visited, it could not determine
               whether or if any of the 180 items it could not locate were actually missing, lost, or
               stolen. It also could not determine to what extent the data in PIPS was accurate.
               Making these determinations will require BBG to ensure that a 100 percent inventory
               of all nonexpendable personal property is conducted. The results of that inventory
               should then be compared with the results contained in PIPS, and PIPS data should
               then be revised as appropriate.

                   Without proper control and accountability of its nonexpendable personal prop-
               erty, BBG cannot be assured of the disposition of the property, and the potential
               exists for this property to be missing, lost, or stolen. A 100 percent physical inven-
               tory would also ensure that information in PIPS is accurate so that this property can
               be properly tracked and controlled in the future.

               Management Comments on Finding B

                   In its response (see Appendix C), BBG stated that OIG’s report “does an excel-
               lent job” in documenting procedures pertaining to audit property at overseas posts,
               but it provided additional comments to be included in the report.

                  BBG stated that its staff members were “energetic, interested, and involved in”
               broadcasting U.S. Government programs to foreign audiences but that its “budgets
               and resources are continually shrinking.” BBG stated, for example, that the station

20 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED




    in Germany had three transmitting sites and a staff of 41 in October 2006 but had
    only 20 staff members at the end of FY 2009. However, the number of annual
    shortwave broadcast hours “has increased from 32,400 to 45,760.” BBG stated that
    “needed inventory control and reporting” may have been hampered because of the
    emphasis on “achieving the station’s broadcast mission” and acknowledged that
    “more emphasis” needed to be placed on ensuring that annual inventories are “thor-
    ough, complete, and correct.”

        Regarding items that OIG could not ﬁnd, BBG noted that OIG “did not en-
    counter any evidence to suggest that signiﬁcant amounts of missing or unaccounted
    items had been stolen, pilfered, or otherwise misappropriated.” Rather, BBG stated
    that the stations’ “inability to account for items can best be characterized as ad-
    ministrative in nature” and that “staff members fully expect that the vast majority
    of missing items will be accounted for once proper resources are applied to do the
    research and clean up the inventories.”

        Regarding administrative functions, BBG stated that resurces are “slim,” travel to
    transmitting stations is “infrequent,” and training is “a particularly difﬁcult issue.”

        BBG reiterated that because the existence of 48 items could not be conﬁrmed
    “does not necessarily mean that items are missing or have been lost.” Rather,
    according to BBG, the items can be “found’ or recovered merely by placing a proper
    barcode on the item.”

         BBG did not dispute OIG’s ﬁndings regarding PIPS data on property not be-
    ing veriﬁcable or complete and the results of its inventory veriﬁcation. However,
    it stated that station staff, “ in many instances,” provided “anecodotal information
    and recollections” about the items and expressed conﬁdence that the items “were
    accounted for despite missing documentation.” BBG further stated that “the docu-
    mentation may be missing, not the item.”


         Recommendation 7: OIG recommends that the Broadcasting Board of
         Governors (BBG), Ofﬁce of Engineering and Technical Services, review and
         revise, as appropriate, its guidance on conducting physical inventories to provide
         complete and easy-to-understand instructions for property custodians and other
         individuals who conduct inventories and that this guidance be incorporated into
         Transmitting Station Instructions, the International Broadcasting Bureau Manual
         of Operations & Administration, or other applicable BBG guidance.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   21 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED





                    Recommendation 8: OIG recommends that the Broadcasting Board of Gov-
                    ernors, Ofﬁce of Engineering and Technical Services, develop and implement
                    policies and procedures to ensure that all accountable ofﬁcers, property custo-
                    dians, and other individuals involved in conducting annual physical inventories
                    of nonexpendable personal property receive initial and then periodic follow-up
                    training on conducting and reporting the results of the physical inventories.



                   Recommendation 9: OIG recommends that the Broadcasting Board of Gov-
                   ernors, Ofﬁce of Engineering and Technical Services, direct all accountable
                   property ofﬁcers to conduct a complete physical inventory of all nonexpend-
                   able personal property assigned to or located within their respective organiza-
                   tional units as soon as training has been completed but no later than March 31,
                   2011.


                   Recommendation 10: OIG recommends that the Broadcasting Board of
                   Governors, Ofﬁce of Engineering and Technical Services, revise Property In-
                   ventory Processing System guidance to require the mandatory input of serial
                   numbers, vehicle identiﬁcation numbers, or other unique identiﬁers for all non-
                   expendable property with such unique identiﬁers.


                   Management Response and OIG Reply: BBG concurred with Recommenda-
               tions 7-10, stating that it would take the actions recommended. For Recommenda-
               tion 9, BBG noted that in correcting the discrepancies identiﬁed in the audit, the Sri
               Lanka Transmitting Station’s inventory for 2010 reﬂected “the culmination of this
               effort” by identifying 90 missing items, valued at $97,599, out of an inventory of
               items valued at $27,274,039. Based on the response, OIG considers Recommenda-
               tions 7-10 resolved, pending receipt of acceptable evidence of implementation.




22 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED





                      LIST OF RECOMMENDATIONS

    Recommendation 1: OIG recommends that the Broadcasting Board of Gover-
      nors, Ofﬁce of Engineering and Technical Services, in conjunction with the Chief
      Financial Ofﬁcer, identify the system and procedural modiﬁcations and correc-
      tions required to meet the requirements for reporting on capitalized nonexpend-
      able personal property for the annual ﬁnancial statements and that it implement
      the appropriate modiﬁcations and corrections no later than September 30, 2010.

    Recommendation 2: OIG recommends that the Broadcasting Board of Governors
      Chief Financial Ofﬁcer, upon veriﬁcation that the Property Inventory Processing
      System (PIPS) meets its requirements for reporting on capitalized nonexpendable
      personal property in the annual ﬁnancial statements, use PIPS data rather than the
      internally developed spreadsheet.

    Recommendation 3: OIG recommends that the Broadcasting Board of Gover-
      nors, Ofﬁce of Engineering and Technical Services, in conjunction with the Chief
      Financial Ofﬁcer, review all capitalized nonexpendable personal property identi-
      ﬁed; assign salvage values for each item as appropriate; and adjust the annual de-
      preciation expense calculations, accumulated depreciation expenses, and net book
      values for these items in the Property Inventory Processing System and the Chief
      Financial Ofﬁcer’s capitalized property spreadsheet as appropriate.

    Recommendation 4: OIG recommends that the Broadcasting Board of Governors
      Chief Financial Ofﬁcer inform the independent auditor of the revisions to annual
      and accumulated depreciation and net book value for capitalized property, plant,
      and equipment that resulted from the assignment of salvage values and determine
      whether BBG’s ﬁnancial statements for FY 2009 and prior years may have been
      impacted.

    Recommendation 5: OIG recommends that the Broadcasting Board of Gover-
      nors, Ofﬁce of Engineering and Technical Services, in conjunction with the Chief
      Financial Ofﬁcer, develop and implement policies and procedures to ensure that
      personnel assign appropriate salvage values to all nonexpendable personal prop-
      erty before annual depreciation rates are calculated and applied.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   23 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED



               Recommendation 6: OIG recommends that the Broadcasting Board of Gover-
                 nors, Ofﬁce of Engineering and Technical Services, develop and implement poli-
                 cies and procedures to ensure that personnel include, in each item’s acquisition
                 costs, shipping and all other costs necessary to make nonexpendable personal
                 property ready for use.

               Recommendation 7: OIG recommends that the Broadcasting Board of Governors
                 (BBG), Ofﬁce of Engineering and Technical Services, review and revise, as ap-
                 propriate, its guidance on conducting physical inventories to provide complete
                 and easy-to-understand instructions for property custodians and other individuals
                 who conduct inventories and that this guidance be incorporated into Transmitting
                 Station Instructions, the International Broadcasting Bureau Manual of Operations
                 & Administration, or other applicable BBG guidance.

               Recommendation 8: OIG recommends that the Broadcasting Board of Gover-
                 nors, Ofﬁce of Engineering and Technical Services, develop and implement poli-
                 cies and procedures to ensure that all accountable ofﬁcers, property custodians,
                 and other individuals involved in conducting annual physical inventories of non-
                 expendable personal property receive initial and then periodic follow-up training
                 on conducting and reporting the results of the physical inventories.

               Recommendation 9: OIG recommends that the Broadcasting Board of Governors,
                 Ofﬁce of Engineering and Technical Services, direct all accountable property of-
                 ﬁcers to conduct a complete physical inventory of all nonexpendable personal
                 property assigned to or located within their respective organizational units as soon
                 as training has been completed but no later than March 31, 2011.

               Recommendation 10: OIG recommends that the Broadcasting Board of Gover-
                 nors, Ofﬁce of Engineering and Technical Services, revise Property Inventory
                 Processing System guidance to require the mandatory input of serial numbers,
                 vehicle identiﬁcation numbers, or other unique identiﬁers for all nonexpendable
                 property with such unique identiﬁers.




24 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED





                                       ABBREVIATIONS

    AUD                               Ofﬁce of Audits
    BBG                               Broadcasting Board of Governors
    CFO                               Chief Financial Ofﬁcer
    E ofﬁce                           Ofﬁce of Engineering and Technical Services
    E/OT                              Network Support Division
    FAM                               Foreign Affairs Manual
    OIG                               Ofﬁce of Inspector General
    PIPS                              Property Inventory Processing System
    SFFAS                             Statement of Federal Financial Accounting Standards




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   25 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED





26 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED





                                            APPENDIX A


    SCOPE AND METHODOLOGY
        The Ofﬁce of Inspector General (OIG) conducted its audit between June 2009
    and March 2010 at Broadcasting Board of Governors (BBG) ofﬁces in Washington,
    DC, and in August 2009 at transmitting stations in the Northern Mariana Islands
    (Saipan and Tinian), the Philippines (Poro and Tinang), Germany (Biblis and Lam-
    pertheim), and Sri Lanka (Chilaw). OIG conducted this performance audit in ac-
    cordance with generally accepted government auditing standards. Those standards
    require that OIG plan and perform the audit to obtain sufﬁcient, appropriate evi-
    dence to provide a reasonable basis for the ﬁndings and conclusions based on the au-
    dit objectives. OIG believes that the evidence obtained provides a reasonable basis
    for the ﬁndings and conclusions based on the audit objectives.

         OIG analyzed BBG’s policies, procedures, and other guidance, as well as other
    relevant laws, regulations, and standards, including the Federal Acquisition Regula-
    tion; applicable Government Accountability Ofﬁce reports, such as Standards for
    Internal Control in the Federal Government and Best Practices in Achieving Con-
    sistent, Accurate Physical Counts of Inventory and Related Property; Ofﬁce of
    Management and Budget directives; and the Department of State’s Foreign Affairs
    Manual and Foreign Affairs Handbook. OIG interviewed ofﬁcials, including the
    agency property control ofﬁcer, accountable ofﬁcers, and property custodians, who
    were responsible for managing and maintaining nonexpendable personal property
    inventories, and it reviewed Property Inventory Processing System (PIPS) data and
    applicable purchase and receipt records in the Network Support Division (E/OT)
    and at the transmitting stations at the locations visited. OIG also interviewed ofﬁcials
    from the ofﬁce of the Chief Financial Ofﬁcer (CFO) involved with collecting data
    and reporting on the annual and accumulated depreciation expense associated with
    the net book value of capitalized property for BBG’s annual ﬁnancial statements. In
    addition, OIG met with the independent auditor to discuss the results of its audit of
    BBG’s ﬁnancial statements for FYs 2008 and 2009.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   27 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED




                    OIG selected transmitting stations in Sri Lanka, the Northern Marianas, the
               Philippines, and Germany for site visits and review using a nonstatistical sampling
               method known as judgment sampling. Because this method uses discretionary cri-
               teria to effect sample selection, the audit team was able to use information garnered
               during the survey phase to aid in making informed selections.

                   A prime consideration in selecting the sites was the number of items at the sta-
               tions and their acquisition costs as stated in PIPS on June 23, 2009, which are shaded
               in Table 1. The selected sites accounted for 57 percent of all overseas items. The
               items at these locations also had a total acquisition cost of about $106.3 million, or
               44 percent of the total acquisition cost of all overseas items. This percentage would
               increase to 62 percent if Thailand was eliminated from the calculation—a reasonable
               measure, since just two of the stations’ items totaled $54 million, or 75 percent of
               the total acquisition costs of its items. Moreover, the independent auditor perform-
               ing the ﬁnancial statement audit selected Thailand as one of its sites to perform
               work. Consequently, OIG did not include Thailand among its sites to visit.

                Table 1. Overseas Nonexpendable Property Items and Costs by Location
                                           Number of            Percent of            Acquisition            Percent of
                 Location                    Items                Total                  Cost                  Total
                 Thailand                             226                       3         $72,683,399                      30
                 Philippines                         1501                     18          $41,025,382                      17
                 Sri Lanka                           1454                     17          $25,941,851                      11
                 Kuwait                               724                       8         $23,833,542                      10
                 Northern Marianas                    976                     11          $20,490,815                        8
                 Sao Tome                            1832                     21          $19,130,102                        8

                 Germany                              941                     11          $18,887,455                        8
                 Botswana                             132                       2         $18,319,517                        8
                 Other overseas                       740                      9          $2,879,814                        1
                             Totals                  8526                    100        $243,191,877                      100



                   The criteria for selection of stations also included geographical and logistical
               considerations and the recency of site visits made by OIG, as well as by the indepen-
               dent auditor. OIG performed tests for existence of the items and completeness of
               the lists generated by PIPS. The steps taken to select the individual items of prop-
               erty are as described.




28 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED




    Detailed Sampling Methodology at Selected Transmitting
    Stations

         OIG’s sampling objective was to determine whether BBG could properly ac-
    count for its nonexpendable personal property maintained overseas. OIG tested the
    lists generated by PIPS at selected overseas locations to verify existence of the items
    and completeness of the lists. These tests are commonly referred to as “list-to-
    ﬂoor” and “ﬂoor-to-list,” respectively.

         Existence Test

        To determine whether the overseas transmitting stations could account for the
    items in their property inventory lists, OIG randomly selected items from the lists
    and physically veriﬁed their existence, that is, list-to-ﬂoor testing. OIG used the
    PIPS property records to sample the target population (that is, the population in-
    tended to be covered).

        OIG grouped the items in each property list into like categories, or strata, pri-
    marily to ensure that items of special interest from each category were adequately
    represented in our sample as follows:

         1. Capitalized property.
         2. Noncapitalized property with a cost between $5,000 and $24,999.
         3. Sensitive items with a cost of $4,999 or less, such as cameras and computers.
         4. Noncapitalized property with a cost of $4,999 or less.

         OIG planned to focus on the ﬁrst three categories. In fact, OIG intended to
    review all the items for these three strata at all but one of the sites to be visited, as
    indicated in Table 2. Since the overseas sites are permitted discretion as to whether
    to include noncapitalized property with a cost of $4,999 or less, OIG planned to
    review the least number of these items, which is the last of the four categories, for
    the purpose of determining consistency within and between transmitting stations in
    maintaining inventory records.

        OIG’s original sampling plan called for a total sample at the eight selected over-
    seas sites of 1,843 items out of a total universe of 4,901 items contained in PIPS on
    July 8, 2009—a planned sampling rate of 38 percent. These totals are broken out by
    location and category in Table 2.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   29 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED



           Table 2. Identiﬁcation of Sampled Universes per PIPS and Planned Sample Sizes
           per Location

                                                                                             % of             % of
                                                                                             Total          Universe
             Location                              Category                        Universe Universe Sample Sampled
             Chilaw, Sri         Capitalized property                                       62              4          62          100
             Lanka               Non-capitalized – $5,000–$24,999                           83              6          83          100
                                 Sensitive items – $4,999 or less                          156            11         156           100
                                 Non-capitalized – $4,999 or less                        1155             79         109             9
                                                                     Subtotals            1456           100          410           28
             Saipan,             Capitalized property                                       11             3           11          100
             Northern
                                 Non-capitalized – $5,000–$24,999                           36            11           36          100
             Marianas
                                 Sensitive items – $4,999 or less                          101            31         101           100
                                 Non-capitalized – $4,999 or less                          175            54           14            8
                                                               Subtotals                   323           100          162           50
             Tinian,             Capitalized property                                       41             6           41          100
             Northern
                                 Non-capitalized – $5,000–$24,999                           86            13           86          100
             Marianas
                                 Sensitive items – $4,999 or less                          112            17         112           100
                                 Non-capitalized – $4,999 or less                          415            63           34            8
                                                                     Subtotals             654           100         273            42
             Poro,               Capitalized property                                       20            11           20          100
             Philippines
                                 Non-capitalized – $5,000–$24,999                           36            20           36          100
                                 Sensitive items – $4,999 or less                           57            31           57          100
                                 Non-capitalized – $4,999 or less                           71            39            3            4
                                                                     Subtotals             184           100          116          63
             Tinang,             Capitalized property                                      130            10         130           100
             Philippines
                                 Non-capitalized – $5,000–$24,999                          238            18           77           32
                                 Sensitive items – $4,999 or less                          476            35         161            34
                                 Non-capitalized – $4,999 or less                          508            38           21            4

                                                                     Subtotals            1352           100         389            29

               Table continued on next page


30 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED



    Table continued

                                                                                     % of             % of
                                                                                     Total          Universe
     Location                         Category                             Universe Universe Sample Sampled
   Biblis,             Capitalized property                                      35       17     35      100
   Germany             Non-capitalized – $5,000–$24,999                          27       13     27      100
                       Sensitive items – $4,999 or less                            43             21          43              100
                       Non-capitalized – $4,999 or less                           103             50            5               5
                                                            Subtotals             208           100          110               53
   Lampertheim, Capitalized property                                               60             15          60              100
   Germany
                       Non-capitalized – $5,000–$24,999                           103             26         103              100
                       Sensitive items – $4,999 or less                            72             18          72              100
                       Non-capitalized – $4,999 or less                           168             42            7               4
                                                            Subtotals             403           100          242               60
   Ismaning,           Capitalized property                                        10              3          10              100
   Germany             Non-capitalized – $5,000–$24,999                            74            23           74              100
                       Sensitive items – $4,999 or less                            49            15           49              100
                       Non-capitalized – $4,999 or less                           188            59            8               4
                                                      Subtotals                   321           100          141              44
                                                               Totals            4901               -       1843               38


      Sample Selection. OIG was unable to affect its original sampling plan, as detailed in
 Table 2, because the PIPS database from which OIG obtained its sampling frames or in-
 ventory lists was incomplete and inaccurate. Speciﬁc anomalies included missing items;
 duplicate items; and incorrect serial numbers, acquisition costs, acquisition dates, present
 locations, and descriptions. Moreover, OIG was not able to sample any items at Isman-
 ing because, according to station ofﬁcials, all of the property was transferred to Kuwait,
 although PIPS listed 321 items for this station. Because of these deﬁciencies, OIG was
 not able to employ the intended statistical sampling design,1 namely, stratiﬁed random
 sampling, at each of the ofﬁces visited, as planned.




    1
     A statistical sample requires each unit in the population to have a known nonzero probability of
    selection, and a random method is used to choose the speciﬁc units to be included in the sample.



OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010         31 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED



                    Since no sampling could be performed at Ismaning, OIG did not include this
               station in any subsequent discussions of testing. Excluding Ismaning, OIG sampled
               1,702 items (37 percent) of the total universe of 4,580 at the remaining seven sites.
               As shown in Table 3, OIG focused, as planned, on capitalized property, noncapi-
               talized property with acquisition costs between $5,000 and $24,999, and sensitive
               items with a cost of $4,999 or less, sampling 100 percent, 74 percent, and 69 percent,
               respectively, of all of the items in these three categories per PIPS.
                   Table 3. Samples Selected Per Property Category
                                                                                                               Percent
                                  Category                            Universe             Sample              Sampled
                Capitalized property                                            359                  359                   100
                Non-capitalized – $5,000–$24,999                                609                  448                    74
                Sensitive items – $4,999 or less                              1017                   702                    69
                Non-capitalized – $4,999 or less                              2595                   193                     7
                                                         Totals               4580                 1702                     37

                     Completeness Test

                   To determine whether all required2 nonexpendable property was recorded in
               PIPS, OIG tested the lists for completeness. This procedure is commonly referred
               to as “ﬂoor-to-list” testing.

                    Sample Selection. OIG sampled items being used or stored at the seven sites
               visited and then attempted to locate the property in the inventory lists. The nature
               of such tests makes it extremely difﬁcult, if not impossible, to develop a comprehen-
               sive sampling frame or list that includes the entire universe of items on the “ﬂoor,”
               thereby precluding the use of statistical sampling. Consequently, the team selected
               a judgmental sample of items based on factors such as accessibility and value to
               conﬁrm whether the property items were appropriately and accurately recorded in
               inventory. Speciﬁcally, OIG sampled 257 items of nonexpendable personal prop-
               erty at the seven sites visited and tried to trace them back to PIPS or the archive ﬁle.
               The number of locations visited and the amount of time available at each site were
               among the factors that caused the sample sizes to vary considerably.




               2
                Required property consists of (1) property that is durable, has an expected life of 2 years or
               more, and an acquisition cost of $5,000 or more and (2) property that is considered “sensitive.”


32 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED



         Review of Internal Controls

         OIG tested the items in the PIPS database for existence and inventory lists gen-
    erated by PIPS for completeness. Compliance with applicable policies, procedures,
    and processes was also reviewed to assess whether the system of internal controls
    over the inventory of nonexpendable personal property was effective (that is, wheth-
    er it provided reasonable assurance as to the reliability of inventory information and
    accountability of the nonexpendable personal property). As stated in the report,
    OIG identiﬁed numerous deﬁciencies and internal control weaknesses in physically
    inventorying and accounting for property items and in the completeness, accuracy,
    and reliability of the PIPS data.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   33 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED





34 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                       UNCLASSIFIED





                                                   APPENDIX B

DETAILED RESULTS OF EXISTENCE AND COMPLETENESS SAMPLES
   During its audit, the Ofﬁce of Inspector General (OIG) found anomalies in tests of the existence of
property and the completeness of data in the Property Inventory Processing System (PIPS).

   Existence Results

    At the seven transmitting stations visited, OIG found 180 anomalies (11 percent) of the 1,702 items
sampled. These anomalies are shown in Table 1 by location, category of property, and speciﬁc anomaly
type. The three types of anomalies OIG found are as follows:
   • 	 The item could not be located at all despite indications in PIPS that it was assigned to the station.
   • 	 The item was stated to be disposed of or transferred, but this assertion was not adequately docu-
       mented.
   • 	 An item was presented to OIG, but veriﬁcation was not possible because the item lacked a bar-
       code and/or a serial number or other individual identiﬁer that could be matched with PIPS; the
       serial number in PIPS associated with the barcode did not match the serial number on the item;
       or the item was stated to be located at a location that OIG could not visit and the station could
       not provide any evidence (such as a picture of the item, barcode and serial number, or hand re-
       ceipt) that the item existed.

   Table 1. Details of Existence Test Sampling
                                                                                                       Speciﬁc Anomalies
                                                                                             Property Deﬁcient              Other
                                                            Sample          Total of           Not    Documen-            Veriﬁcation
 Location                     Category                       Size          Anomalies         Located   tation              Problems
Chilaw, Sri   Capitalized property                                 62                    5            1               0               4
Lanka
              Non-capitalized – $5,000–$24,999                     83                  10             2               0               8

              Sensitive items – $4,999 or less                    156                  31            18               0              13
              Non-capitalized – $4,999 or less                    109                  32            10               1              21

                                              Subtotals           410          78 (43%)              31               1              46


Table continued on next page



       OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010        35 .


                                                       UNCLASSIFIED
                                                   UNCLASSIFIED



  Table continued

                                                                                                          Speciﬁc Anomalies

                                                                                                Property Deﬁcient              Other
                                                                Sample         Total of
                                                                                                  Not    Documen-            Veriﬁcation
    Location                      Category                       Size         Anomalies
                                                                                                Located   tation              Problems
   Saipan,         Capitalized property                                11                   0            0               0             0
   Northern        Non-capitalized – $5,000–$24,999                    36                   6            4               0             2
   Marianas
                   Sensitive items – $4,999 or less                   101                   8            7               0             1
                   Non-capitalized – $4,999 or less                    14                   2            1               0             1
                                                  Subtotals           162           16 (9%)             12               0             4
   Tinian,         Capitalized property                                41                   2            1               0             1
   Northern        Non-capitalized – $5,000–$24,999                    86                  10            4               2             4
   Marianas
                   Sensitive items – $4,999 or less                   112                   5            2               1             2
                   Non-capitalized – $4,999 or less                    34                   2            0               0             2
                                                  Subtotals           273           19 (11%)             7               3             9
   Poro,           Capitalized property                                20                   2            0               0             2
   Philippines
                   Non-capitalized – $5,000–$24,999                    36                   1            0               0             1
                   Sensitive items – $4,999 or less                    57                   5            0               0             5
                   Non-capitalized – $4,999 or less                     3                   0            0               0             0
                                                  Subtotals           116             8 (4%)             0               0             8
   Tinang,         Capitalized property                               130                  12            0               0            12
   Philippines
                   Non-capitalized – $5,000–$24,999                    77                   3            0               0             3
                   Sensitive items – $4,999 or less                   161                  14            0               1            13
                   Non-capitalized – $4,999 or less                    21                   3            0               0             3
                                                  Subtotals           389          32 (18%)              0               1            31
   Biblis,         Capitalized property                                35                   2            0               0             2
   Germany
                   Non-capitalized – $5,000–$24,999                    27                   2            0               1             1
                   Sensitive items – $4,999 or less                    43                   2            0               0             2
                   Non-capitalized – $4,999 or less                     5                   0            0               0             0
                                                  Subtotals           110             6 (3%)             0               1             5

  Table continued on next page




36 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                   UNCLASSIFIED



Table continued

                                                                                                        Speciﬁc Anomalies
                                                                                              Property Deﬁcient              Other
                                                              Sample         Total of
                                                                                                Not    Documen-            Veriﬁcation
 Location                      Category                        Size         Anomalies
                                                                                              Located   tation              Problems
Lampert-       Capitalized property                                  60                   9            2               3             4
heim,
               Non-capitalized – $5,000–$24,999                    103                    5            0               0             5
Germany
               Sensitive items – $4,999 or less                      72                   7            2               2             3
               Non-capitalized – $4,999 or less                       7                   0            0               0             0
                                               Subtotals           242           21 (12%)              4               5            12
                                                   Totals         1702          180 (11%)             54              11           115


     Property Not Located

     Of the 180 nonexpendable personal property items that could not be veriﬁed, neither OIG
nor station personnel could locate 54 (30 percent) items. PIPS showed total acquisition costs for
these items as $497,000. Four of the items, described as control room equipment, two satellite
receiving systems, and a dry type transformer, were capitalized, with a total acquisition cost of
$375,000 and a depreciated net book value of $2,450. The remaining 50 items included property
described as cell phones, monitors, computers, printers, radio equipment, frequency synthesiz-
ers, up converters, modems, and zip drives, with individual acquisition costs ranging from $87 to
$16,000 and totaling approximately $122,000.

     Although station personnel could not explain why most of the 54 items could not be located,
they provided explanations for six items as follows: two modulation monitors and a frequency
synthesizer were reported as not having been seen since 2004, one modulation monitor was
reported as never having been seen, one cell phone was reported as having been traded in for a
replacement (4 days before the PIPS record of the date it was last inventoried), and one spare
relay air conditioning panel was reported as having been removed when the air conditioning unit
was removed “some years ago.” PIPS records indicated that all of these items had been inven-
toried between February and April 2009—only a few months before the arrival of OIG at the
stations—and that none of the items had previously or subsequently been reported as disposed
of or missing.

    Evidence of Disposal or Transfer Not Provided

    Of the 180 nonexpendable personal property items that could not be veriﬁed, 11 (6 percent)
could not be located and OIG could not obtain adequate documentation to conﬁrm that the
items had been previously disposed of, reported as missing, or transferred to another Broadcast-

   OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010    37 .


                                                   UNCLASSIFIED
                                                   UNCLASSIFIED




               ing Board of Governors (BBG) entity. One item, according to station personnel,
               was reported to have been identiﬁed as missing in July 2009, and all of the other
               items were stated to have been disposed of or transferred between the 1990s and
               2008, including three antennas purported to have been demolished in 1997. PIPS
               showed total acquisition costs for these items as approximately $226,000. In addi-
               tion, PIPS records indicated that all of these 11 items were last inventoried between
               February and April 2009.

                   The three antennas were capitalized, with a total acquisition cost of almost
               $196,000. Individual acquisition costs ranged from $30,000 to $115,000, with depre-
               ciated net book values for all three items fully depreciated to zero. The remaining
               eight items were a walkie-talkie, an up converter, a deﬁbrillator, a telephone, a com-
               puter, a controller, and two satellite receivers. Individual acquisition costs ranged
               from $800 to $9,800 and totaled approximately $31,000.

                    Other Physical Veriﬁcation Issues

                   OIG also was not able to verify the physical existence of 115 (64 percent) of
               the 180 items. Of these 115 items, 19 were purportedly at locations that differed
               from those in PIPS records, but station personnel were not able to provide evidence
               to this effect; 48 had missing barcodes or other unique identiﬁers; and 48 had serial
               numbers or other unique identiﬁers that did not match information in PIPS records.

                    Evidence for Property Located Elsewhere. Of the 115 items that could not be veriﬁed,
               OIG could not determine the existence of 19 items because they were identiﬁed by
               station personnel as being located where OIG was unable to visit, such as at remote
               locations or repair shops. Station personnel were unable to provide documentation,
               such as hand receipts or photographs with barcodes and serial numbers, to sup-
               port the property’s existence. PIPS showed total acquisition costs for these items
               as $62,000. None of the items had been capitalized. The items included receivers,
               analyzers, radio equipment, computers, and generators, with acquisition costs ranging
               from $625 to $11,600.

                   Barcodes and Other Unique Identiﬁers. Of the 115 items, OIG could not conﬁrm
               the existence1 of 48 items because the items shown to OIG were missing the origi-
               nal barcodes or barcodes were reprinted, were written on masking tape, or were
               painted/written directly on the item. In addition, PIPS records did not contain a

               1
                 Because a replacement, taped, or written barcode could be placed on any item of a similar de-
               scription and OIG was not performing a complete physical inventory of all items at each loca-
               tion, OIG did not have reasonable assurance that these 48 items were the same as those included
               in OIG’s sample.


38 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED




    serial number or other unique identiﬁer for the items, and station personnel could
    not provide any other evidence that the items shown to OIG and in OIG’s sample
    were the same. PIPS showed total acquisition costs for these items as $3.8 million.
    PIPS records indicated that all of these items had been inventoried and that none
    were subsequently reported as disposed of or missing.

         Of the 48 items, 10 items, with total acquisition costs of $3.6 million, were
    capitalized. These items were described as a power substation, a riggerline truck,
    two sets of transmitting equipment, an antenna switching system, an audio rout-
    ing switcher, a vertex antenna, a rapid transformer, a motor control center, and a
    switchgear control unit. Individual acquisition costs ranged from $27,000 to $1.1
    million, with depreciated net book values ranging from zero for nine items to more
    than $51,000 for the vertex antenna acquired in 1996. The other 38 items included
    property described as jack stands, computers, printers, furniture, monitors, lift trucks,
    air conditioners, satellite dishes, door lock systems, uplink switches, and smoke and
    heat detection test equipment, with acquisition costs ranging from $100 to $22,348
    and totaling approximately $200,000.

        Serial Numbers in PIPS and on Items. For the remaining 48 items, with acquisi-
    tion costs of $3.1 million, OIG could not conﬁrm their existence because either
    the barcode or the serial number/unique identiﬁer on the item did not match the
    property record in PIPS and station personnel could not provide evidence that the
    items shown were the items in our sample. For example, one item had two different
    barcodes. Although both barcodes were in PIPS, one did not have a serial number
    associated with it, and the other barcode had a serial number in PIPS that did not
    match the one found on the item. PIPS records also indicated that all 48 items had
    been inventoried between January and April 2009.

        Of the 48 items, 13 items, described as a milling machine, a lifting machine, a
    power cable feeder, two security itemizers, a forklift, a traveling wave tube analyzer,
    four generator sets, a backhoe, and a truck with digger, were capitalized, with a total
    acquisition cost of $3 million. Individual acquisition costs ranged from $25,000
    to $690,000, with depreciated net book values ranging from zero for 11 items to
    $34,000 and $36,000 for the two security itemizers. The remaining 35 items included
    property described as cell phones, iridium phones, monitors, computers, air condi-
    tioners, batwing mowers, and trailer jacks, with individual acquisition costs ranging
    from $100 to $17,000 and totaling $100,000.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010   39 .


                                                UNCLASSIFIED
                                                   UNCLASSIFIED




                 Completeness Results

                 To determine whether all required property was recorded in PIPS, OIG tested the
            lists for completeness. This procedure is commonly referred to as “ﬂoor-to-list” testing.

                 As detailed in Table 2, OIG could not ﬁnd 101 (39 percent) of the sample of 257
            items in either PIPS or the archive ﬁle—51 items had barcodes and 50 did not. If an item
            did not have a barcode but had a serial number, OIG searched for the serial number in
            PIPS and the archive ﬁle. Because information such as acquisition costs was sometimes
            missing, OIG could not always be certain whether items were required to be included
            in PIPS or were optional at the station’s discretion. Consequently, OIG, as part of the
            sample selection process, compared the items on the “ﬂoor” with items in PIPS or the
            archive ﬁle to determine whether the same type of items was already in inventory at that
            location. OIG used the rationale that if a site had multiples of an item and included at
            least one item in PIPS or the archive ﬁle in order to track it, then all of the same type
            of items should be included. Such a discretionary item qualiﬁed for inclusion in OIG’s
            sample; otherwise, an item did not. After this determination was made, the actual sample
            was selected for review, and the results are as shown in Table 2.

            Table 2. Details of Completeness Test Sampling
                                          Sri              Northern
                                         Lanka             Marianas                Philippines                Germany
                                                                                                                      Lamper-
                                         Chilaw        Saipan       Tinian       Poro      Tinang         Biblis       theim        Totals

               Items In Sample:
                   with barcode                 44            21           24         27          37             22            30      205
                without barcode                 20             2           23          2           4              0             1       52
                         Totals                 64            23           64         29          41             22            31      257

               Items in PIPS or
               the Archive File:
                    with barcode              38            16           19         23          34              8            16       154
                 without barcode               2             0            0          0           0              0             0          2
                           Totals             40            16           19         23          34              8            16        156
              Percent in Sample            (63%)         (70%)        (40%)      (79%)       (83%)          (36%)         (52%)     (61%)
                 Items NOT
                in PIPS or the
                 Archive File:
                 with barcode                  6             5            5          4            3            14            14         51
               without barcode                18             2           23          2            4             0             1         50
                    Totals                    24             7           28          6            7            14            15        101
              Percent in Sample            (38%)         (30%)        (60%)      (21%)        (17%)         (38%)         (48%)     (39%)


40 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED





                                            APPENDIX C

                     BROADCASI'ING BOARD OF GOVERNORS
                     UNITED STATES OF AMERICA




                                                              June 23, 2010



          Ms. Evelyn R. Klemstine
          Assistant Inspector General for Audits
          Office oflnspector General
          U.S. Department of State

          Dear Ms. Klemstine:

          This is in response to the e-mail from Ms. Amy Conigliaro, dated May 26, 2010, regarding the
          Office of Inspector General's (OIG) draft report titled, "Audit of Broadcasting Board of
          Governors Overseas Nonexpendable Personal Property," Report Number AUDIXX -10-XX,
          May 2010.

          The Broadcasting Board of Governors is grateful for the opportunity to review the OIG's draft
          report. This report will be very helpful to our efforts in this vital area. Our overall comments to
          the report and to Recommendations I through 10 are noted on the enclosure.

          If you have any questions, please feel free to contact me, or contact Mr. John S. Welch, Senior
          Advisor, International Broadcasting Bureau, at (202) 203-4515.

                                                              Sincerely,



                                                                  f114-~
                                                             Jeffrey N. Trimble
                                                             Executive Director


          Enclosure: As Stated


OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                UNCLASSIFIED
                                                                                                                              -
                                                                                                                              41 .
                                                   UNCLASSIFIED





                                                                                                                Enclosure


                                  Broadcasting Board of Governors (BBG) Response to the
                                   Office ofinspeetor General's (OIG) Draft Report titled,
                   "Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property"
                                         Report Number AUDIXX-IO-xx, May 2010


                  BBG Overall Comments:

                  1. The report does an excellent job of docwnenting the procedures that were followed to audit
                      property at IBB overseas sites. In our April 21, 2010 comments on the discussion draft
                      report, we suggested adding language in the final report to address some points made by
                      BBG representatives in the Exit Conference held with OIG staff on April 16, 20 IO. We
                      again suggest that the following text be included in the final report:

                           "At all levels, IBB staffmembers were energetic, interested, and involved in their
                          primary mission - that ofbroadcasting U.S. government programs to aforeign
                           audience. Recent years have been difficultfor the staffat overseas broadcasting
                          stations as budgets and resources are continually shrinking. In Germany, for
                           example, as recently as October 2006, the station had three transmitting sites
                           (lsmaning, Lamperlheim, and Biblis) wilh a staff of41. At the end ofFY 2009, 20
                          staffmembers remained. During that same time, however, the number of annual
                          shartwave broadcast hours has increasedfrom 32,400 to 45, 760. In addition, the
                           Germany Transmitting Station has taken on numerous additional responsibilities
                          for lBB operations in Tajikistan, Cyprus, and Afghanistan.

                         This need to focus on achieving the station's broadcast mission may have hampered
                         stq/f altention on needed inventory control and reporting as they addressed more
                         mission critical tasks. Nevertheless, the IBB must place more emphasis on ensuring
                         that the annual inventory is thorough, complete, and correct.

                          Moreover, although the Audit Team found numerous instances where the stations
                          could not properly account for inventory, the Team did not encounter any evidence
                          to suggest that significant amounts of missing or unaccounted items had been
                          stolen, pilfered, or otherwise misappropriated. The station inability to account for
                          items can best be characterized as administrative in nature. At all levels, the IBB
                          staff members fully expect that the vast majority ofmissing items will be accounted
                         for once proper resources are applied to do the research and clean up the
                         inventories. "

                  2. We do not dispute the text under the heading "Physical Inventories Not Adequately
                     Conducted" on pages 12 and 13. The draft docwnents many of the shortfalls ofthe IBB
                     inventory process but makes no mention of the difficulties we encounter in executing the
                     system. In our April 21, 2010 comments on the discussion draft report, we suggested adding




-
42 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED





                                                               2


          the below text to explain the difficulties. We again suggest that the following text be
          included in the final report:

             "The IBB manages a far-flung broadcasting network that spans the globe. The
             extensive range ofthis network provides excellent broadcast coverage in most areas
             of the world but also makes carrying out administrative functions difficult,
             especially with increasing mission~relateddemands andfewer resources.
             Resources are slim, and travel by Headquarters managers and staff to the various
             transmitting stations is infrequent. Training is a particularly difficult issue as the
             IBB generally cannnt afford to conductface-to-face trainingfor all employees in all
             skills. For skill subsets such as inventory control, there are generally few
             individuals at each station who are familiar with procedures. Training is generally
             ad-hoc and is oftell conducted rapidly or informally as employees retire or depart
             and responsibilities are transferred This reality mau" it extremely difficult to
             adequately staffand address the important inventory jUnction. "

     3. Page 26 of the draft report contains the following text: "Of the ]]5 items, OIG could not
        confirm the existence of 48 ilems because the items shown to OIG were m;~'sing the original
        barcodes or barcodes were reprinted, were written on masking tape, or were paintedlwritten
        directly on the item." We cannot dispute the accuracy of this text. However, in our April 21,
        2010 comments on the discussion draft, we suggested that the text below be incorporated into
        the report as additional clarification. We again suggest that the following text be
        incorporated into the final report:

              "The IBB has requested that we note that this is a relatively strict standard being
             applied by Auditors. While there can be no argument that the statement is correct,
             it does not necessarily mean that items are missing Dr have been lost. In many
             cases, the item can be "found" or recovered merely by placing a proper barcode on
             the item. in a seme, the item may have been lost by the administrative system, buJ
             is nol actually missing or unusable and can be quickly and simply recaptured by the
             inventory system. "

     4. The text under the heading "Finding B. PIPS Data on Property Could NOI Always Be
        Verified and Was Incomplete" constitutes an area where there can be little argument with the
        facts, but some additional clarification appears to be warranted. In our April 21, 2010
        comments on the discussion draft we suggested incorporating the text below as additional
        clarification. We again suggest that the following text be incorporated into the final report:

             "It is noted that the majority of items are in the categories of "Could Not Confirm
             Item Was What or Where PlPS Data lndicated" and "Could Not Oblain Adequate
             Documentationfor Item Disposition." In many instances, station staffprovlded
             anecdotal information and recollections about the items. The staff was often
             confldent that the items were accountedfor despite missing documentation. This
             may well be correct, and it ;s likely that in many cases these items can be
             adequately accounted for after some research and administrative effort. In these
             cases, the documentalion may be missing, notlhe item. "




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                UNCLASSIFIED
                                                                                                                              -
                                                                                                                              43 .
                                                   UNCLASSIFIED





                                                                          )




                       BBG Responses to OIG Recommendations:

                       Recommendation I: oro recommends that the Broadcasting Board ofOovemors, Office of
                       Engineering and Technical Services, in conjunction with the ChiefFinaocial Officer, identify the
                       system and procedural modifications and corrections required to meet the requirements for
                       reporting 00 capitalized nonexpendable personal property for the annual financial statements and
                       that it implement the appropriate modifications and corrections no later than September 30,
                       2010.

                       BBG Response (June 23. 2010): BBG concurs with this recommendation. The Office of the
                       Chief Fioancial Officer (CFO) will identify necessary adjustments to capitalized nOD-
                       expendable personal property in the year-end financial statements and will make any
                       corrections to the statements, as appropriate, by September 30,2010. The Office of the
                       CFO and the Network Support Division (E/On will also identify necessary system and
                       procedural changes required to meet the reporting requirements by September 30, 2010.
                       Required modifications will be implemented io the Property Inventory Processing System
                       (PIPS) as necessary to meet these reporting requirements.

                       Recommendation 2: oro recommends that the Broadcasting Board of Governors Chief
                       Financial Officer, upon verification that the Property Inventory Processing System (PIPS) meets
                       its requirements for reporting on capitalized nonexpendable personal property in the annual
                       financial statements, use PIPS data rather than the internally developed spreadsheet.

                       BBG Response (June 23, 2010): PIPS is an inventory management control database and
                       was not iotended to serve as a financial system. The BBG agrees that we need to take
                       action to address the issues identified in this report. However, development of a fully
                       integrated property and rmaneial accounting system is along-term project. In the short
                       term, the BBG will take steps to develop and implement appropriate procedural changes to
                       the reporting of capitalized property, plant, and equipment and will evaluate the ability of
                       PIPS to generate the necessary information required in the BBG's financial statements.

                       Recommendation 3: OIG recommends that the Broadcasting Board of Governors, Office of
                       Engineering and Technical Services, in conjunction with the Chief Financial Officer, review all
                       capitalized nonexpendable personal property identified; assign salvage values for each item as
                       appropriate; and adj ust the annual depreciation expense calculations, accumulated depreciation
                       expenses, and net book values for these items in the Property Inventory Processing System and
                       the Chief Financial Officer's capitalized property spreadsheet as appropriate.

                       BBG Response (Jnne 23. 2010): BBG concurs with this recommendation. The CFO and
                       Network Support Division personnel will coordioate a review of aU capitalized
                       Donexpendable personal property and will revise policies and procedure as necessary.
                       Adjustments will be made to the system generated records to accurately value capitalized
                       assets maintained, as appropriate.

                      Recommendation 4: OIG recommends that the Broadcasting Board of Governors Chief
                      Financial Officer inform the iodependent auditor of the revisions to annual and accumulate




-
44 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED





                                                              4


      depreciation and net book value for capitalized property, plant, and equipment that resulted from
      the assignment of salvage values and determine whether BBG's fmancial statements for FY 2009
      and prior years may have been impacted.

      BBG Response (June 23, 2010): BBG concurs with this recommendation. The omcc ofthe
      CFO will analyze the impact of any adjustmeuts to capitalized property, plaut, and
      equipment as a result of its asset review and will communicate any impact on the BBG's
      financial statements to the external auditors, as appropriate.

      Recommendation 5: OIG recommends that the Broadcasting Board of Governors, Office of
      Engineering and Technical Services, in conjunction with the Chief Financial Officer, develop
      and implement policies and procedures to ensure that personnel assign appropriate salvage
      values to all nonexpendable personal property before armual depreciation rates are calculated and
      applied.

      BBG Response (June 23. 2010): BBG concurs with this recommendation. The omce of
      Engineering and Technical Services and the CFO will coordinate to develop aod implement
      asset management policies which incorporate the assigning of appropriate salvage values to
      all non expendable personal property in order to calculate annual depreciation and net
      book value amounts.

     Recommcndation 6: OIG recommends that the Broadcasting Board of Govemors, Office of
     Engineering and Technical Services, develop and implement policies and procedures to ensure
     that personnel include in each item's acquisition costs, shipping and all other costs necessary to
     make nonexpendable personal property ready for use.

     BBG Response (Jone 23. 2010): BBG concurs with this recommendation. The Network
     Support Division will develop and implement the necessary policies and procedures to
     ensure that shipping and other applicable costs are included in the acquisition cost assigned
     to an item of capitalized property.

     Recommendation 7: OIG recommends that the Broadcasting Board of Governors (BBG),
     Office of Engineering and Technical Services, review and revise, as appropriate, its guidance on
     conducting physical inventories to provide complete and easy·to-understand instructions for
     property custodians and other individuals who conduct inventories and that this guidance be
     incorporated into Transmitting Station Instructions, the International Broadcasting Bureau
     Manual of Operations & Administration, or other applicable BBG guidance.

     BBG Response (June 23. 2010): BBG concurs with this recommendation. As a result of the
     DIG Exit Conference held on April 16, 2010, the Network Support Division (E/OT) has
     already developed a detailed briefmg on conducting a property inventory, and will soon be
     ready to begin presenting it to personnel at tbe transmitting stations. After the briefing
     proce.s has been completed, and feedback from the stations is evaluated, E/OT will
     incorporate the gnidance provided in the hrief'mg into TSI-108, Property AccounlabiliJy,
     and into tbe appropriate sections of the Agency's Manual of Operations & Administration
     (now called Broadcasting Administrative Manual), or other applicable Agency guidance.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                UNCLASSIFIED
                                                                                                                              -
                                                                                                                              45 .
                                                   UNCLASSIFIED





                                                                         5


                        E/OT will also use its SharePoint site on the Agency's intranet to disseminate information
                        on property accountability and property inventory.

                        Recommendation 8: OIG recommends that the Broadcasting Board of Govemors, Office of
                        Engineering and Technical Services, develop and implement policies and procedures to ensure
                        that all accountable officers, property custodians, and other indhiduals involved in conducting
                        annual physical inventories of nonexpendable personal property receive initial and then periodic
                        follow-up training on conducting and reporting the results of the physical inventories.

                        BBG Response (June 23, 2010): BBG concurs with this recommendation. A detailed
                        briefmg has been drafted by the Network Support Division (E/OT) that, once approved,
                        will be presented to personnel at the transmitting stations. The briefmg consists of slides
                        and a narrative that cover preparing and conducting an inventory, reconciling the results
                        and updating the property records, and reporting the results. Once the initial training is
                        conduded, the slides and narrative will be made available to the stations on ElOT's
                        SharePoint site on the Agency's intranet. The stations can use this information to provide
                        periodic follow-up training to its station personnel. After the initial training has heen
                        completed, E/OT also will provide periodic follow-up training as required.

                        Recommendation 9: OIG recommends that the Broadcasting Board of Governors, Office of
                        Engineering and Technical Services, direct all accountable property officers to conduct a
                        complete physical inventory of all nonexpendable persoual property assigned to or located within
                        their respective organizational units as soon as training has been completed but no later than
                        March 31, 2011.

                        BBG Response (June 23, 2010): BBG concurs with this recommendation. The
                        transmitting stations will be direded to conduct a 100% physical inventory oftheir
                        property using the guidance provided in the training developed by the Network Support
                        Division. The inventory of the nonexpendable property located in the transmitting station
                        network will be completed no later than March 31, 2011.

                        It shonld be noted that at lea,t two of the transmitting stations that were visited by the OlG
                        a, part ofthis audit have already taken action to correct the inventory problems that were
                        identilied during the OlG visit. The Sri Lanka Transmitting Station re-inventoried it,
                        nonexpendable property and is in the process of completing the reconciliation process, The
                        station was recently visited by an OIG inspection team, and the foUowing quote is from that
                        team's draft report:

                              "In August 2009, the station underwent an audit as part of a larger OIG review of
                              the agency's non expendable property accounting system. Having submitted an
                              inventory months earlier that had shown no discrepancies, the station
                              management was surpri..d when the audit revealed an unexpectedly high
                              number of discrepancies, including difficult-to.jind or missing items, missing
                              barcode labe/s, and insuffICient or erroneous database details.




-
46 . OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                   UNCLASSIFIED
                                                UNCLASSIFIED





                                                                6


             Although the station was e1Jentually able to account for most items, the station
             manager believed they should undertake a more thorough review of the
             nonexpendable property database and inventory. In October 2009, the station
             began correcting discrepancies uncovered during the OIG audit and investigated
             the general state of its Property Inventory Processing System database and overall
             inventory. The station's 2010 inventory reflects the culmination of this effort.
             Out of an inventory valued at $27,274,039, the shortage was $97,599, well under
             one percent. The station will remove the 90 missing items from its inventory
             under the one percent rule. "

     Similarly, the IBB Station Manager at the Philippines Transmitting Station-who also is
     responsible for the Northern Mariana Islands Transmitting Station-reports the following
     for the Marianas: .~ complete physical inventory was completed and submitted in May 2010.
     A property management person from the Philippines was on site for training and assistance,
     the station manager followed-up in June 2010 making numerous spot checks. Minor
     errors/omissions were corrected with cooperation by EOT. "

     Recommendation 10: OIG recommends that the Broadcasting Board of Governors, Office of
     Engineering and Technical Services, revise Property Inventory Processing System guidance to
     require the mandatory input of serial numbers, vehicle identification numbers, or other unique
     identifiers for all nonexpendable property with such unique identifiers.

     BBG Response (June 23, 2010): BBG concurs with this recommendation. The Network
     Support Division will modify the Property Inventory Processing System to make the
     SERIAL NUMBER field mandatory. In addition, the training that will be provided to the
     personnel at the transmitting stations addresses verifying the serial number for those items
     that have them as part of the inventory process.




OIG Report No. AUD/HCI-10-24, Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal Property - July 2010


                                                UNCLASSIFIED
                                                                                                                              -
                                                                                                                              47 .
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
